LEGAL PRINTERS,

LLC

202-747-2400
202-449-9565 Fax
LegalPrinters.com

5614 Connecticut Avenue, NW #307
Washington, DC 20015

December 27, 2019
Clerk
Supreme Court of the United States
1 First Street, NE
Washington, D.C. 20002
RE:

APPLE INC. V. VIRNETX INC. AND LEIDOS, INC.

Dear Sir or Madam:
I hereby certify that at the request of counsel for the Petitioner, on December 27,
2019, I caused service to be made pursuant to Rule 29 on the following counsel for the
Respondents:
RESPONDENT VIRNETX INC.:
Jeffrey A. Lamken
MoloLamken LLP
The Watergate, Suite 660
600 New Hampshire Avenue, NW
Washington, DC 20037
202-556-2000
jlamken@mololamken.com

RESPONDENT LEIDOS, INC.:
David Urrabazo
Urrabazo Law PC
2029 Century Park East
Suite 1400
Los Angeles, CA 90067
310-388-9099
durrabazo@ulawpc.com

This service was effected by depositing three copies of a Petition for a Writ of
Certiorari in an official “first class mail” receptacle of the United States Post Office as
well as by transmitting digital copies via electronic mail.
Sincerely,
Jack Suber, Esq.
Principal

Sworn and subscribed before me this 27th day of December 2019.

